INDEX TO APPENDICES
APPENDIXA

Opinion of the United States Court of Appeals: Wilkinson v. Burtlow,
Case no. 20-1452, 2021 U.S. App. LEXIS 13624

APPENDIX B

Recommendation of the United States District Court Magistrate
Judge: Wilkinson v. Burtlow, 20-CV-1328-LTB-GPG

APPENDIX C

ORDER Denying Habeas Petition by Lewis T. Babcock, Senior
Judge: Wilkinson v. Burtlow, 20-cv*1328-LTB-GPG

APPENDIX D

Opinion of the Colorado Court of Appeals: People v. Wilkinson, Case
no. 16CA2111, 2018 Colo. App. LEXIS 1042

APPENDIX E

Opinion of the Mesa County District Court

APPENDIX F

Copy of the Order Denying En Banc Rehearing

!
*
i

i

APPENDIX.

i

f
i
i

I

i

t

■

■

;

I

Appellate Case: 20-1452

Document: 010110518869

Tenth Circuit
UNITED STATES COURT OF APPEALS
TENTH CIRCUIT

May 7, 2021

Christopher M. Wolpert
Clerk of Court

MARK LEE WILKINSON,
Petitioner - Appellant,
No. 20-1452
(D.C.No. 1:20-CV-01328-LTB-GPG)
(D. Colo.)

v.

SHIOBAN BURTLOW; THE
ATTORNEY GENERAL OF THE
STATE OF COLORADO,
Respondents - Appellees.

ORDER DENYING CERTIFICATE
OF APPEALABILITY

Before BACHARACH, MURPHY, and CARSON, Circuit Judges.

This matter is before the court on Mark Lee Wilkinson’s pro se requests for
a certificate of appealability (“COA”) and to proceed on appeal in forma pauperis.
He seeks a COA so he can appeal the district court’s dismissal, on timeliness
grounds, of his 28 U.S.C. § 2254 habeas petition. See 28 U.S.C. § 2253(c)(1)(A)
(providing no appeal may be taken from the dismissal of a § 2254 petition unless
the petitioner first obtains a COA); id. § 2244(d)(1) (setting out a one-year
limitations period running from the date on which the state conviction became
final). This court grants Wilkinson’s request to proceed on appeal in forma

* Appellate Case: 20-1452

Document: 010110518869

Date Filed: 05/07/2021

Page: 2

pauperis. Because, however, Wilkinson has not “made a substantial showing of
the denial of a constitutional right,” id. § 2253(c)(2), we deny his request for a
COA and dismiss this appeal.
Wilkinson was found guilty in Colorado state court of numerous counts of
child sexual assault and incest. See generally Wilkinson v. Timme, 503 F. App’x
556, 557 (10th Cir. 2012). In the instant § 2254 habeas petition, Wilkinson
asserts his counsel was ineffective during the plea bargaining process. In a
thorough Report and Recommendation, a magistrate judge concluded Wilkinson’s
habeas petition was untimely. The magistrate judge further determined that
Wilkinson was not entitled to either statutory or equitable tolling. Upon de novo
review, the district court adopted the magistrate judge’s Report and
Recommendation and dismissed Wilkinson’s habeas petition.
The obtaining of a COA is a jurisdictional prerequisite to Wilkinson’s
appeal from the dismissal of his § 2254 petition. Miller-El v. Cockrell, 537 U.S.
322, 336 (2003). To be entitled to a COA, he must make “a substantial showing
of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). That is, he must
demonstrate “reasonable jurists could debate whether (or, for that matter, agree
that) the petition should have been resolved in a different manner or that the
issues presented were adequate to deserve encouragement to proceed further.”
Miller-El, 537 U.S. at 336 (quotations omitted). When a district court dismisses a

-2-

AppeHale Case: 20-1452

Document: 010110518869

Date Filed: 05/07/2021

Page: 3

§ 2254 motion on procedural grounds, a petitioner is entitled to a COA only if he
shows both that reasonable jurists would find it debatable whether he had stated a
valid constitutional claim and debatable whether the district court’s procedural
ruling was correct. Slack v. McDaniel, 529 U.S. 473, 484-85 (2000). In
evaluating whether Wilkinson has satisfied his burden, we undertake “a
preliminary, though not definitive, consideration of the [legal] framework”
applicable to each of his claims. Miller-EU 537 U.S. at 338. Although Wilkinson
need not demonstrate his appeal will succeed, he must “prove something more
than the absence of frivolity or the existence of mere good faith.” Id. (quotations
omitted). As a further overlay, we review for abuse of discretion the district
court’s decision that Wilkinson is not entitled to have the § 2244(d) limitations
period equitably tolled. See Burger v. Scott, 317 F.3d 1133, 1141 (10th Cir.
2003).

Having undertaken a review of Wilkinson’s appellate filings, the magistrate
judge’s Report and Recommendation, and the district court order of dismissal, we
conclude Wilkinson is not entitled to a COA. The district court’s resolution of
Wilkinson’s § 2254 petition is not deserving of further proceedings or subject to a
different resolution on appeal. In so concluding, there is no need for this court to
repeat the analysis set out in the magistrate judge’s well-stated Report and
Recommendation. Instead, it is enough to note that Wilkinson’s habeas petition is

-3-

Appellate Case: 20-1452

Document: 0101105183S9

Date Filed: 05/07/2021

clearly untimely and he has not demonstrated the types of extraordinary
circumstances entitling him to equitable tolling, Al-Yousif v. Irani, 779 F.3d
1173, 1179 (10th Cir. 2015). Accordingly, this court DENIES Wilkinson’s
request for a COA and DISMISSES this appeal.
ENTERED FOR THE COURT

Michael R. Murphy
Circuit Judge

-4-

Page:4

•!

AfPEVW*

Case l:20-cv-01328-LTB-GPG Document 25 Filed 09/22/20 USDC Colorado Page 1 of 12

-i

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Gordon P. Gallagher, United States Magistrate Judge

Civil Action No. 20-CV-01328-LTB-GPG
MARK LEE WILKINSON
Applicant,
v.

i

SHIOBAN BURTLOW, and
THE ATTORNEY GENERAL OF THE STATE OF COLORADO
Respondents.

RECOMMENDATION OF UNITED STATES MAGISTRATE JUDGE

This matter comes before the Court on the Application for a Writ of Habeas
Corpus Pursuant to 28 U.S.C. § 2254 (ECF No. 1)1 filed pro se by Applicant, Mark Lee
Wilkinson, on May 11, 2020. The matter has been referred to this Magistrate Judge for
■A

recommendation (ECF No. 24.)2

1

“

(ECF No. 1)" is an example of the convention I use to identify the docket number assigned to a specific
paper by the Court’s case management and electronic case filing system (CM/ECF). I use this convention
throughout this Recommendation.
2 Be advised that all parties shall have fourteen (14) days after service hereof to serve and file any written
objections in order to obtain reconsideration by the District Judge to whom this case is assigned. Fed. R.
Civ. P. 72(b). The party filing objections must specifically identify those findings or recommendations to
which the objections are being made. The District Court need not consider frivolous, conclusive or
general objections. A party's failure to file such written objections to proposed findings and
recommendations contained in this report may bar the party from a de novo determination by the District
Judge of the proposed findings and recommendations. United States v. Raddatz, 447 U.S. 667, 676-83
(1980); 28 U.S.C. § 636(b)(1). Additionally, the failure to file written objections to the proposed findings
and recommendations within fourteen (14) days after being served with a copy may bar the aggrieved
party from appealing the factual findings and legal conclusions of the Magistrate Judge that are accepted
or adopted by the District Court. Thomas v. Am, 474 U.S. 140, 155 (1985); Moore v. United States, 950
F.2d 656, 659 (10th Cir. 1991).

Case l:20-cv-01328-LTB-GPG Document 25 Filed 09/22/20 USDC Colorado Page 2 of 12

The Court must construe the Application liberally because Mr. Wilkinson is not
represented b^an attorney. See Haines v. Kerner, 404 U.S. 519, 520-21 (1972); Hail v.
Belimon, 935 R.2d 1106, 1110 (10th Cir. 1991). However, the Court should not be an
advocate for a pro se litigant. See Hall, 935 F.2d at 1110.
On June 8, 2020, the Court ordered Respondents to file a Pre-Answer Response
limited to addressing the affirmative defenses of timeliness under 28 U.S.C. § 2244(d)
and exhaustion of state remedies pursuant to 28 U.S.C. § 2254(b)(1)(A) if Respondent
intends to raise either or both of those defenses in this action. Respondents also were
directed to address whether the Application is a second or successive application
subject to dismissal pursuant to 28 U.S.C. § 2244(b). On July 29, 2020, Respondents
filed a Pre-Answer Response (ECF No. 18) arguing that the Application is second or
successive and untimely and that the claim Mr. Wilkinson seeks to assert is
unexhausted and procedurally defaulted. On September 10, 2020, Mr. Wilkinson filed a
Pre-Answer Reply (ECF No. 21).
The Court has reviewed the filings to date. The Court has considered the entire
case file, the applicable law, and is sufficiently advised in the premises. This Magistrate
Judge respectfully recommends that the Application be denied and the action be
dismissed.
I. DISCUSSION
Mr. Wilkinson is a prisoner in the custody of the Colorado Department of
Corrections. He challenges the validity of his state court conviction in Mesa County
Colorado, District Court case number 99CR1111. The long procedural history of state
court proceedings in Mr. Wilkinson’s case was summarized by the Colorado Court of

2

Case l:20-cv-01328-LTB-GPG Document 25 Filed 09/22/20 USDC Colorado Page 3 of 12

Appeals in 2018 as follows:
1
In 2001, the trial court sentenced Wilkinson to an
aggregate term of fifty-two years to life in the custody of the
department of Corrections in connection with convictions
entered for sexual assault on a child (two counts), sexual
assault on a child - pattern of abuse, sexual assault on a
child by one in position of trust (two counts), sexual assault
on a child by one in position of trust - pattern of abuse, and
aggravated incest (three counts).
On direct appeal, a division of this court affirmed
Wilkinson’s convictions and sentences, after rejecting his
contentions that reversal was required because the trial
court erred in (1) not dismissing the case for speedy trial
violations; (2) admitting evidence of his sexual orientation;
(3) failing to suppress illegally seized evidence; (4) admitting
evidence from an improperly endorsed witness; (5)
discharging the subpoena served on the victim’s mother
without requiring her to testify; and (6) sentencing him. See
People v. Wilkinson, (Colo. App. No. 01CA0897, May 8,
2003) (not published pursuant to C.A.R. 35(f) {Wilkinson I)
(mandate issued on October 20, 2003).
Ji

A. Wilkinson's Prior Crim. P. 35 Proceedings

-r

In 2004, Wilkinson filed a pro se Crim. P. 35(b) motion
for reconsideration of his sentence, asserting that his
sentence was illegal because, among other things, it violated
double jeopardy. In 2005, Wilkinson, through counsel, filed a
'‘Supplemental" Crim. P. 35(a) and (c) motion, contending
that he was entitled to relief because of (1) newly discovered
evidence (i.e., an affidavit from the victim (Wilkinson’s son)
recanting his trial testimony; (2) ineffective assistance of trial
ahd appellate counsel (i.e., in failing to aggressively pursue
an adequate plea deal or tender a plea offer to him; in failing
tci prepare for, to ask for a continuance to prepare for, or to
provide a defense expert to counter the testimony of the
prosecution’s expert witness; in adequately advising him of
his potential sentence; and in failing to raise various issues
on appeal); and (3) an impermissibly aggravated range
sentence.
After conducting evidentiary hearings on three
separate days, the district court denied defendant’s Crim. P.
35 motions. A division of this court affirmed the district
3

•J,

Case l:20-cv-01328-LTB-GPG

Document 25 Filed 09/22/20 USDC Colorado Page 4 of 12

court’s rulings in People v. Wilkinson, (Colo. App. No.
07CA0946, July 30, 2009) (not published pursuant to C.A.R.
35(f)) (Wilkinson II) (mandate issued on April 9, 2010).
r*.

In 2012, Wilkinson filed a Crim. P. 35(a) "Motion to
Correct Illegal Sentence,” alleging, as pertinent here, that he
should have been sentenced to discretionary, not
mandatory, parole with respect to six of his convictions. See
§ 17-2-201 (5)(a.5), C.R.S. 2017 (providing that discretionary
parole is required for persons sentenced for convictions of
unlawful sexual behavior offenses committed on or after July
1, 1996, but prior to July 1,2002). After the prosecution
conceded the issue, the district court amended the mittimus
accordingly. However, the district court rejected Wilkinson’s
other contentions, and the court’s decision was affirmed in
People v. Wilkinson, (Colo. App. No. 12CA2477, Nov. 26,
2014) (not published pursuant to C.A.R. 35(f)) {Wilkinson III)
(mandate issued on October 15, 2015).
B. Wilkinson's Current Crim. P. 35(c) Proceeding
In July 2016, Wilkinson filed another pro se Crim. P.
35(c) motion based on claims of ineffective trial and
postconviction counsel. Specifically, Wilkinson asserted that
.M

if

•trial counsel was ineffective (1) during the plea
bargaining phase of the case and (2) in failing to
object to expert testimony that improperly vouched for
the victim’s veracity; and
•postconviction counsel was ineffective for failing to
(1) argue that the prosecution’s expert inappropriately
vouched for the victim's credibility; (2) argue that trial
counsel was ineffective in failing to object to the
impermissible vouching evidence; and (3) adequately
pursue on appeal the issue of trial counsel’s
ineffectiveness during plea bargaining.

Without holding a hearing, the district court denied
Wilkinson’s motion, finding that, although his claims were
timely filed, they were successive. Specifically, the district
court found that claims related (1) to trial counsel’s
ineffectiveness could have been brought in a prior Crim. P.
35(c) motion and (2) to postconviction counsel’s
ineffectiveness could have been brought in 2012 when he
fi ed his Crim. P. 35(a) motion to correct illegal sentence.
4

Case l:20-cv-01328-LTB-GPG Document 25 Filed 09/22/20 USDC Colorado Page 5 of 12

(ECF No. 18-2;at pp.3-7 (paragraph numbering and footnotes omitted).)
Mr. Wilkinson also has filed a prior federal habeas corpus application pertinent to
Mesa County case number 99CR1111 that was dismissed on the merits. See Wilkinson
i-

i/. Timme, No. 11-cv-00454-REB (D. Colo. June 1, 2012), appeal dismissed, 503 F.
App’x 556 (10th Cir. 2012), cert, denied, 569 U.S. 951 (2013).
In the instant action, Mr. Wilkinson asserts one claim that counsel was ineffective
during the pies bargaining process regarding a plea offer presented by the prosecution.
Mr. Wilkinson raised the same ineffective assistance of plea counsel claim in the prior
federal habeas corpus action. That claim was dismissed in case number 11-cv-00454REB as unexhausted and procedurally barred.
A. Second or Successive Application
Respondents contend the Application is a second or successive application
challenging the! validity of Mr. Wilkinson’s Mesa County conviction that must be
dismissed purs uant to 28 U.S.C. § 2244(b). Mr. Wilkinson counters that the Application
is not second or successive because the Mesa County District Court entered an
amended judgment in 2012 to correct an illegal sentence and the Application is his first
application challenging the amended judgment. As noted above, the state court
amended the judgment to clarify Mr. Wilkinson is subject to discretionary parole rather
than mandator/ parole for certain convictions. According to Mr. Wilkinson, the amended
judgment “changes the entire judgment of conviction [and], whether the second habeas
petition challenges the new sentence or the judgment of conviction as a whole, it is
neither second nor successive.” (ECF No. 1 at p.11.)
The Court’s analysis of the second or successive issue begins with Magwood v.
5

il

Case l:20-cv-01328-LTB-GPG Document 25 Filed 09/22/20 USDC Colorado Page 6 of 12

Patterson, 561 U.S. 320 (2010). In Magwood, the Supreme Court held that when “there
is a ‘new judgment intervening between the two habeas petitions,’ an application
challenging the resulting new judgment is not ‘second or successive’ at all.” Id. at 34142 (citation omitted). Thus, in Magwood, the petitioner's second challenge to his
sentence unde'r 28 U.S.C. § 2254 was not barred as a second or successive application
when it came after the petitioner had been resentenced following a successful § 2254
habeas corpus action and the petitioner asserted claims in the second petition based on
the resentencing. See id. at 323-24. However, the Supreme Court expressly declined to
extend its holding to a situation, like the instant action, where the second-in-time
application challenges the original conviction and not the new sentence. See id. at 342.
The United States Court of Appeals for the Tenth Circuit has declined to extend
the holding in Magwood to cases where an amended judgment was entered only to

r

correct a clerical error. See May v. Kansas, 562 F. App’x 644, 645-646 (10th Cir. 2014)
(amended journal entry of judgment correcting clerical error that indicated sentences
were consecutve was not a “new intervening judgment” from which an otherwise
second or successive habeas petition may be filed); see also In re Martin, 398 F. App’x
326, 327 (10th Cir. 2010) (denying authorization to file second or successive application
challenging intervening judgment that “merely corrected a clerical error”). The parties
disagree as to whether correction of the mittimus to reflect that Mr. Wilkinson is subject
to discretionary rather than mandatory parole for certain convictions qualifies as a
clerical error. The Court need not resolve this issue because, even assuming the
Application is not a second or successive application subject to dismissal under 28
U.S.C. § 2244(b), the Application is untimely.

6

:2

Case l:20-cv-013:7.8-LTB-GPG Document 25 Filed 09/22/20 USDC Colorado Page 7 of 12

B. One-Year Limitation Period
An application for a writ of habeas corpus under § 2254 is subject to a one-year
limitation period. The relevant statute provides as follows:
(1) A 1 -year period of limitation shall apply to an application for a
writ of habeas corpus by a person in custody pursuant to the
judgment of a State court. The limitation period shall run from the
latest of•

(A) the date on which the judgment became final by the
conclusion of direct review or the expiration of the time for
seeking such review;

;; (B) the date on which the impediment to filing an application
created by State action in violation of the Constitution or laws of
the United States is removed, if the applicant was prevented
from filing by such State action;
(C) the date on which the constitutional right asserted was
initially recognized by the Supreme Court, if the right has been
newly recognized by the Supreme Court and made retroactively
applicable to cases on collateral review; or
. (D) the date on which the factual predicate of the claim or claims
presented could have been discovered through the exercise of
' due diligence.
(2.) The time during which a properly filed application for State postcbnviction or other collateral review with respect to the pertinent
judgment or claim is pending shall not be counted toward any
period of limitation under this subsection.
28 U.S.C. § 2244(d).
In order to apply the one-year limitation period the Court first must determine the
date on which Mr. Wilkinson's conviction became final. See 28 U.S.C. § 2244(d)(1)(A).
In general, a conviction becomes final following a decision by the state court of last
resort on direc: appeal when the United States Supreme Court denies review, or, if no
petition for writ of certiorari is filed, when the time for seeking such review expires. See

7

A

Case l:20-cv-01328-LTB-GPG Document 25 Filed 09/22/20 USDC Colorado Page 8 of 12
i

Locke v. Saffle, 237 F.3d 1269, 1273 (10th Cir. 2001). Pursuant to Rule 13.1 of the
Rules of the Supreme Court of the United States, Mr. Wilkinson had ninety days to seek
review in the United States Supreme Court after the Colorado Supreme Court denied
his petition for writ of certiorari on direct appeal on October 14, 2003. (See ECF No. 1819.) Mr. Wilkinson does not allege, and there is no indication in the record before the
Court, that he filed a petition for certiorari review in the United States Supreme Court on
direct appeal. Therefore, Mr. Wilkinson's conviction was final in January 2004 when the
time to seek such review expired.
Mr. Wilkinson disagrees and argues that the one-year limitation period did not
start until the amended judgment was entered in October 2012. The Court is not
persuaded because the one-year limitation period applies on a claim-by-claim basis.
See Prendergast v. Clements, 699 F.3d 1182, 1187 (10th Cir. 2012). Thus, the oneyear limitation period does not restart following imposition of a new sentence when the
habeas application challenges only the original conviction. See id. at 1184 (declining to
disturb the district court’s correct conclusion that claims challenging original conviction
in 2003 are untimely despite resentencing in 2009 following probation violations); Burks
v. Raemisch, 6.80 F. App’x 686, 687 (10th Cir. 2017) (holding that resentencing does not
restart the one year limitation period for “matters originally decided and put to rest
through direct appeal, state post-conviction remedies and the running of the time
allotted for federal habeas review”); Carillo v. Zupan, 626 F. App’x 780, 781-82 (10th
Cir. 2015) (amended judgment that reduced the amount of restitution did not trigger a
new one-year period for claims challenging conviction rather than corrected sentence).
As noted above, Mr. Wilkinson asserts one ineffective assistance of plea counsel claim

8

Case l:20-cv-01328-LTB-GPG Document 25 Filed 09/22/20 USDC Colorado Page 9 of 12

in the Application that is unrelated to the parole issue corrected in the amended
judgment. As a result, the Court agrees with Respondents that Mr. Wilkinson’s
conviction was final in January 2004 for purposes of the claim he asserts.
The Court also finds that the one-year limitation period for the ineffective
assistance of counsel claim in the Application began to run in January 2004 because
Mr. Wilkinson does not allege he was prevented by unconstitutional state action from
filing this action sooner, he is not asserting any constitutional rights newly recognized by
the Supreme Court and made retroactively applicable to cases on collateral review, and
he knew or could have discovered the factual predicate for his claims before his
conviction became final. See 28 U.S.C. § 2244(d)(1)(B) - (D).
The next issue is tolling. Pursuant to § 2244(d)(2), a properly filed state court
postconviction motion tolls the one-year limitation period while the motion is pending. An
application for postconviction review is properly filed within the meaning of § 2244(d)(2)
"when its delivery and acceptance are in compliance with the applicable laws and rules
governing filings.” Artuz v. Bennett, 531 U.S. 4, 8 (2000). These requirements include:
(1) the place and time of filing; (2) the payment or waiver of
any required filing fees; (3) the obtaining of any necessary
judicial authorizations that are conditions precedent to filing
such as satisfying any filing preconditions that may have
been imposed on an abusive filer; and (4) other conditions
precedent that the state may impose upon the filing of a
post-conviction motion..
Habteselassie v. Novak, 209 F.3d 1208, 1210-11 (10th Cir. 2000) (footnote omitted).
The issue of whether a state court postconviction motion is pending for the
purposes of § 2244(d)(2) is a matter of federal law, but "does require some inquiry into
relevant state procedural laws.” See Gibson v. Klinger, 232 F.3d 799, 806 (10th Cir.

9

Case l:20-cv-01328-LTB-GPG

Document 25 Filed 09/22/20 USDC Colorado Page 10 of 12

v

2000). The terrp "pending” includes “all of the time during which a state prisoner is
attempting, through proper use of state court procedures, to exhaust state court
remedies with regard to a particular post-conviction application.” Barnett v. Lemaster,
167 F.3d 1321,1323 (10th Cir. 1999). Furthermore, "regardless of whether a petitioner
11

actually appeals a denial of a post-conviction application, the limitations period is tolled
during the period in which the petitioner could have sought an appeal under state law.”
Gibson, 232 F.3d at 804.
In addition to statutory tolling under § 2244(d)(2), the one-year limitation period
also may be tolled for equitable reasons. Holland v. Florida, 560 U.S. 631, 649 (2010).
Generally, equitable tolling is appropriate if the petitioner shows both "that he has been
pursuing his rights diligently” and “that some extraordinary circumstance stood in his
way” and prevented him from filing in a timely manner. Pace v. DiGuglielmo, 544 U.S.
408, 418 (2005); see Miller v. Marr, 141 F.3d 976, 978 (10th Cir. 1998). A showing of
excusable neg’ect is not sufficient to justify equitable tolling. See Gibson, 232 F.3d at
808. Furthermore, in order to demonstrate he pursued his claims diligently, the
petitioner must “allege with specificity 'the steps he took to diligently pursue his federal
claims."’ Yangv. Archuleta, 525 F.3d 925, 930 (10th Cir. 2008) (quoting Miller, 141 F.3d
at 978).
Respondents concede, and the Court agrees, that the one-year limitation period
already was to led under § 2244(d)(2) when it began to run in January 2004 because a
state court postconviction motion was properly filed in November 2003. The Court
j

further agrees with Respondents that the state court postconviction proceedings
10

Case l:20-cv-01328-LTB-GPG Document 25 Filed 09/22/20 USDC Colorado Page 11 of 12
'1

pertinent to that motion remained pending until the Colorado Supreme Court denied Mr.
Wilkinson’s petition for writ of certiorari on March 22, 2010 (see ECF No. 18-20), and
thus the one-year limitation period was tolled until that time. Mr. Wilkinson did not file
any further postconviction motions in state court within one year after statutory tolling
ended in March 2010. (See ECF No. 18-1 at pp.18-19.) Therefore, the one-year
limitation period expired in March 2011.
Mr. Wilkinson did file his prior federal application in case number 11-cv-00454REB within one year after March 2010. However, the federal habeas corpus action did
not toll the one-year limitation period under § 2244(d)(2). See Duncan v. Walker, 533
U.S. 167, 181 (2001) (holding "that an application for federal habeas corpus review is
not an ‘applicacion for State post-conviction or other collateral review’ within the
meaning of 28(U.S.C. § 2244(d)(2)"). The additional state postconviction motions Mr.
Wilkinson filed beginning in July 2012 also did not toll the one-year limitation period
under § 2244(d)(2) even if the motions were properly filed under state law because
those motions were filed after the one-year limitation period already had expired in
March 2011. See Clark v. Oklahoma, 468 F.3d 711,714 (10th Cir. 2006) (stating that
properly filed state court postconviction motions toll the one-year limitation period under
§ 2244(d)(2) only if they are filed within the one-year limitation period).
Because the instant action was not commenced until May 2020, the action is
untimely in the absence of some other reason to toll the one-year limitation period. Mr.
Wilkinson does not identify any extraordinary circumstances beyond his control that
prevented him from filing a timely application. Therefore, the Court finds no basts for
11

i

Case l:20-cv-01328-LTB-GPG Document 25 Filed 09/22/20 USDC Colorado Page 12 of 12

equitable tolling and the Application is barred by the one-year limitation period in §
2244(d).
II. RECOMMENDATION
For the reasons set forth herein, this Magistrate Judge respectfully
RECOMMENDS that the Application for a Writ of Habeas Corpus Pursuant to 28
U.S.C. § 2254 (ECF No. 1) be denied and the action be dismissed as barred by the
one-year limitation period.
DATED September 22, 2020.
BY THE COURT:

Gordon P. Gallagher
United States Magistrate Judge

•V:

12

t

j

i

APPENDIX

i

:
!
*

i

i
1

f

!

‘

‘

Case l:20-cv-01328-LTB-GPG Document 29 Filed 11/23/20 USDC Colorado Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO

Civil Action No. 20-CV-01328-LTB-GPG
MARK LEE WILKINSON
Applicant

v.
SHIOBAN BURTLOW, and
THE ATTORNEY GENERAL OF THE STATE OF COLORADO
Respondents.

ORDER

This matter is before the Court on the Recommendation of United States
Magistrate Judge (ECF No. 25) filed September 22, 2020. Applicant has filed timely
written objections to the Recommendation (ECF No. 28). The Court has therefore
reviewed the Recommendation de novo in light of the file and record in this case. On de
novo review the Court concludes that the Recommendation is correct.
Accordingly, for the foregoing reasons, it is
ORDERED that the Recommendation of United States Magistrate Judge (ECF
No. 25) is accepted and adopted. It is
FURTHER ORDERED that the Application for a Writ of Habeas Corpus Pursuant
to 28 U.S.C. § 2254 (ECF No. 1) is denied and the action is dismissed as barred by the
one-year limitation period. It is
FURTHER ORDERED that no certificate of appealability will issue because

1

Case l:20-cv-01328-LTB-GPG Document 29 Filed 11/23/20 USDC Colorado Page 2 of 2

Applicant has not made a substantial showing of the denial of a constitutional right. It is
FURTHER ORDERED that leave to proceed in forma pauperis on appeal is
denied without prejudice to the filing of a motion seeking leave to proceed in forma
pauperis on appeal in the United States Court of Appeals for the Tenth Circuit. The
Court certifies pursuant to 28 U.S.C. § 1915(a)(3) that any appeal from this dismissal
would not be taken in good faith. It is
FURTHER ORDERED that Applicant’s Motion for Electronic Service (ECF No.
22) is denied as moot.
DATED: November 23, 2020
BY THE COURT:
s/Lewis T. Babcock
LEWIS T. BABCOCK, Senior Judge
United States District Court

2

I

ii

«
ii

APPENDIX
I

16CA2111 Peo v Wilkinson 07-26-2018
COLORADO COURT OF APPEALS

DATE FILED: July 26, 2018
CASE NUMBER: 2016CA2111

Court of Appeals No. 16CA2111
Mesa County District Court No. 99CR1 111
Honorable Brian J. Flynn, Judge

The People of the State of Colorado,
Plaintiff-Appellee,
v.
Mark Lee Wilkinson,
Defendant-Appellant.

ORDER AFFIRMED
Division II
Opinion by JUDGE DAILEY
Dunn and Tow, JJ., concur
NOT PUBLISHED PURSUANT TO C.A.R. 35(e)
Announced July 26, 2018

Cynthia H. Coffman, Attorney General, Brittany L. Limes, Assistant Attorney
General, Denver, Colorado, for Plaintiff-Appellee
Mark Lee Wilkinson, Pro Se

Defendant, Mark Lee Wilkinson, appeals the district court’s

If 1

order denying, on successiveness grounds, his motion for
postconviction relief. We affirm.
I.

Background

In 2001, the trial court sentenced Wilkinson to an aggregate

12

term of fifty-two years to life in the custody of the Department of
Corrections in connection with convictions entered for sexual
assault on a child (two counts), sexual assault on a child — pattern
of abuse, sexual assault on a child by one in position of trust (two
counts), sexual assault on a child by one in position of trust -—
pattern of abuse, and aggravated incest (three counts).
On direct appeal, a division of this court affirmed Wilkinson’s

13

convictions and sentences, after rejecting his contentions that
reversal was required because the trial court erred in (1) not
dismissing the case for speedy trial violations; (2) admitting
evidence of his sexual orientation; (3) failing to suppress illegally
seized evidence; (4) admitting evidence from an improperly endorsed
witness; (5) discharging the subpoena served on the victim’s mother
without requiring her to testify; and (6) sentencing him. See People
v. Wilkinson, (Colo. App. No. 01CA0897, May 8, 2003) (not
1
i

published pursuant to C.A.R. 35(f)) (Wilkinson Ij (mandate issued on
October 20, 2003).
A.
14

Wilkinson's Prior Crim. P. 35 Proceedings

In 2004, Wilkinson filed a pro se Crim. P. 35(b) motion for

reconsideration of his sentence, asserting that his sentence was
illegal because, among other things, it violated double jeopardy. In
2005, Wilkinson, through counsel, filed a “supplemental” Crim. P.
35(a) and (c) motion, contending that he was entitled to relief
because of (1) newly discovered evidence (i.e., an affidavit from the
victim (Wilkinson’s son) recanting his trial testimony); (2) ineffective
assistance of trial and appellate counsel (i.e., in failing to
aggressively pursue an adequate plea deal or tender a plea offer to
him; in failing to prepare for, to ask for a continuance to prepare
for, or to provide a defense expert to counter the testimony of the
prosecution’s expert witness; in inadequately advising him of his
potential sentence; and in failing to raise various issues on appeal);
and (3) an impermissibly aggravated range sentence.
'15

After conducting evidentiary hearings on three separate days

the district court denied defendant’s Crim. P. 35 motions. A
division of this court affirmed the district court’s rulings in People v.
2

Wilkinson, (Colo. App. No. 07CA0946, July 30, 2009) (not published
pursuant to C.A.R. 35(f)) (Wilkinson Ilj (mandate issued on April 9,
2010).
16

In 2012, Wilkinson filed a Crim. P. 35(a) “Motion to Correct

Illegal Sentence,” alleging, as pertinent here, that he should have
been sentenced to discretionary, not mandatory, parole with respect
to six of his convictions. See § 17-2-201(5)(a.5), C.R.S. 2017
(providing that discretionary parole is required for persons
sentenced for convictions of unlawful sexual behavior offenses
committed on or after July 1, 1996, but prior to July 1, 2002).
After the prosecution conceded the issue, the district court
amended the mittimus accordingly. However, the district court
rejected Wilkinson’s other contentions, and the court’s decision was
affirmed in People v. Wilkinson, (Colo. App. No. 12CA2477, Nov. 26,
2014) (not published pursuant to C.A.R. 35(f)) (Wilkinson III)
(mandate issued on October 15, 2015).
B.
17

Wilkinson’s Current Crim. P. 35(c) Proceeding

In July 2016, Wilkinson filed another pro se Crim. P. 35(c)

motion based on claims of ineffective trial and postconviction
counsel. Specifically, Wilkinson asserted that
3

• trial counsel was ineffective (1) during the plea
bargaining phase of the case and (2) in failing to object to
expert testimony that improperly vouched for the victim’s
veracity; and
• postconviction counsel was ineffective for failing to (1)
argue that the prosecution’s expert inappropriately
vouched for the victim’s credibility; (2) argue that trial
counsel was ineffective in failing to object to the
impermissible vouching evidence; and (3) adequately
pursue on appeal the issue of trial counsel’s
ineffectiveness during plea bargaining.
H8

Without holding a hearing, the district court denied

Wilkinson’s motion, finding that, although his claims were timely
filed,2 they were successive. Specifically, the district court found

1 The same attorney acted as postconviction counsel in both the
district court and on appeal.
2 The district court recognized that, for time-bar purposes, a
conviction does not become final until an illegal sentence has been
corrected. See Leyva v. People, 184 P.3d 48, 50 (Colo. 2008). In
this case, the district court in Wilkinson III corrected illegal
sentences with respect to six of Wilkinson’s nine convictions.
Consequently, the applicable three-year limitations period of section
16-5-402, C.R.S. 2017, began to run again when mandate issued in
4

that claims related (1) to trial counsel’s ineffectiveness could have
been brought in a prior Crim. P. 35(c) motion and (2) to
postconviction counsel’s ineffectiveness could have been brought in
2012 when he filed his Crim. P. 35(a) motion to correct illegal
sentence.
II.
19

Analysis

We review de novo a district court’s summary denial of a Crim.

P. 35(c) motion. People v. Joslin, 2018 COA 24, 1 5. It may be
affirmed on any ground supported by the record, regardless of
whether that ground was relied upon by the district court. People v.
Scott, 116 P.3d 1231, 1233 (Colo. App. 2004).
A.
1 10

Successiveness of Wilkinson’s 2016 Motion

A district court may summarily deny a Crim. P. 35(c) motion if

the motion was successive — that is, if its allegations are the same
as or similar to ones that were either raised and resolved in a prior
appeal or postconviction proceeding, Crim. P. 35(c)(3)(VI),3 or could

Wilkinson III (i.e., October 15, 2015), and Wilkinson’s 2016 motion
for postconviction relief was timely filed.
3 For successive motions purposes, “[a]n issue is essentially the
same issue as one previously raised if review ‘would be nothing
more than a second appeal addressing the same issues on some
5

have been raised in a prior appeal or postconviction proceeding,
Crim. P. 35(c)(3)(VII). See, e.gPeople v. Hampton, 187 Colo. 131,
133, 528 P.2d 1311, 1312 (1974) (“Post-conviction proceedings are
provided as a method of preventing injustices from occurring after a
defendant has been convicted and sentenced, but not for the
purpose of providing a perpetual right of review . . . .”); People v.
Hubbard, 184 Colo. 243, 247, 519 P.2d 945, 947 (1974)
(considering a motion under earlier version of Crim. P. 35(b), now
Crim. P. 35(c), and stating that postconviction proceedings do not
“authorize the defendant to file successive motions based upon the
same or similar allegations in the hope that a sympathetic judicial
ear may eventually be found”); People v. Valdez, 178 P.3d 1269,
1275 (Colo. App. 2007) (Absent an exception, claims “previously
resolved on appeal or in prior postconviction proceedings cannot be
raised again,” and “claims that could have previously been brought
on direct appeal or in postconviction proceedings must be denied.”).
recently contrived constitutional theory.”’ People v. Turley, 18 P.3d
802, 805 (Colo. App. 2000) (quoting People v. Bastardo, 646 P.2d
382, 383 (Colo. 1982)); see also Sanders v. United States, 373 U.S.
1, 16 (1963) (indicating that, for successive motions purposes,
“identical grounds may often be proved by different factual
allegations” or “legal arguments”), quoted with approval in People v.
Rodriguez, 914 P.2d 230, 249 (Colo. 1996).
6

H 11

With this in mind, we consider Wilkinson's current claims of

ineffectiveness of trial and postconviction counsel.
1.
t 12

Ineffectiveness of Trial Counsel

In his opening brief, Wilkinson does not dispute that his

claims regarding trial counsel are “successive” in nature. He
asserts, however, that the rule barring review of successive claims
is inapplicable because
• the district court lacked jurisdiction to consider his prior
motion for postconviction relief in Wilkinson II because
Wilkinson was still subject to illegal sentences at the time;
• he is entitled to the benefit of a supreme court decision that
was rendered after the district court proceedings in Wilkinson
II; and
• he presented newly discovered evidence on his claim of
ineffectiveness in handling the prosecution’s expert at trial.
a.
f 13

District Court's Jurisdiction in Wilkinson I.

We reject Wilkinson’s argument that his claims cannot be

considered “successive” because the district court lacked
jurisdiction to rule (and consequently, cannot be held to have ruled)
on those or similar claims in Wilkinson II.
7

To be sure, a district court acts in excess of its jurisdiction

1

when it imposes an illegal sentence. See People v. White, 179 P.3d
58, 61 (Colo. App. 2007). But acting in excess of jurisdiction on one
matter does not mean that the court loses (or lacks) jurisdiction to
rule on all other matters. We are aware of no authority to that
effect and see no reason why we should adopt such a position. Cf.
Lochbrunner v. Sherman, 26 Colo. 164, 164-65, 56 P. 575, 576
(1899) (“We cannot assume that, because it may not have
jurisdiction for one reason, it has not for any or all others
b.
1 15

”).4

New Rule

Wilkinson asserts that he is entitled to re-open the claim,

decided in Wilkinson II, of ineffective trial counsel during plea
bargaining, based on the supreme court’s decision in Carmichael v.
People, 206 P.3d 800 (Colo. 2009). We disagree.
^ 16

In Carmichael, 206 P.3d 800, the defendant asserted that trial

counsel had been ineffective in explaining the benefits of a plea offer
that the defendant had rejected before trial. The supreme court

4 Indeed, adopting Wilkinson’s argument here would logically lead
us to conclude that the district court lacked jurisdiction to even
entertain his 2012 motion to correct illegal sentence. That, in our
view, would be an absurd result.
8

noted that, to succeed on that claim, the defendant had to meet the
two-prong standard identified in Strickland v. Washington, 466 U.S.
668 (1984), for demonstrating ineffective assistance of counsel: the
defendant had to show both that “the attorney's performance was
‘deficient,”’ and that the defendant “suffered prejudice as a result of
this deficient performance.” 206 P.3d at 806.
H 17

The supreme court noted that, to show prejudice in the plea

bargaining context, a defendant “must demonstrate there is a
reasonable probability that, but for counsel’s errors, he [or she]
would have accepted the plea offer rather than going [sic] to trial.”
Id. at 807. The supreme court held that while “a defendant’s post­
conviction testimony that he would have accepted the plea offer is
in and of itself, insufficient to establish prejudice,”5 his or her

5 In this respect, the court said,

/

[w]e look for some objective corroborating
evidence of the reasonable probability that [the
defendant] would have accepted the plea offer
if not for [the attorney’s] deficient counsel. . . .
Once objective evidence has been supplied to
support a defendant’s claim, the trial court
should review the evidence without supplying
additional weight or suspicions to either side’s
claims.

9

“protestations of innocence, standing alone, are insufficient to
support a finding of no prejudice when weighed against objective
evidence of prejudice.” Id. at 807, 809.
1 18

Similar to the trial court in Carmichael, the district court in

Wilkinson II found that Wilkinson suffered no prejudice because he
“consistently maintained that he [was] innocent and that he
therefore would not have accepted a plea agreement.”
1 19

Under Crim. P. 35, the bar on reviewing successive claims is

inapplicable to
“[a]ny claim based on a new rule of constitutional law that was
previously unavailable, if that rule has been applied
retroactively by the United States Supreme Court or Colorado
appellate courts,” Crim. P. 35(c)(3)(VI)(b); or
“[a]ny claim based on a new rule of constitutional law that was
previously unavailable, if that rule should be applied
retroactively to cases on collateral review,” Crim. P.
3 5 (c)(3) (VII) (c).

Carmichael v. People, 206 P.3d 800, 807, 808 (Colo. 2009).

10

If 20

Both provisions address “new rules” that were “previously

unavailable” to a defendant. The Carmichael case does not, in our
view, fall within these provisions. Even if it set forth a “new rule,”
Carmichael was decided prior to the division's decision in Wilkinson
Hand thus was “available” for use in that appeal. Indeed, one of
Wilkinson’s present ineffective assistance of counsel claims is based
on postconviction counsel’s failure to argue Carmichael in the
appeal in Wilkinson II.
c.
If 21

Newly Discovered Evidence

A district court shall not deny, as successive, “[a]ny claim

based on evidence that could not have been discovered previously
through the exercise of due diligence.” Crim. P. 35(c)(3)(VI)(a); Crim.
P. 35(c)(3)(VII).
122

Here, Wilkinson asserts that he has newly discovered evidence

pertaining to trial counsel’s ineffectiveness addressing the
testimony of a prosecutorial expert at trial. The “newly discovered
evidence” to which he points, though, is an unpublished opinion of
another division of this court holding improper certain “vouching”
testimony in a different case by the same expert who testified for

11

the prosecution in this case. See People v. Jarrell, (Colo. App. No.
12CA2598, Apr. 2, 2015) (not published pursuant to C.A.R. 35(f)).
1T23

An opinion from this court is not “evidence.” Nor is an

unpublished opinion in an unrelated case binding on the district
court. See Bittle v. Brunetti, 750 P.2d 49, 51 n.2 (Colo. 1988)
(“[UJnpublished decisions are not binding precedent

”). Finally/

the Jarrell decision does not represent any change in the law; it was
based on case law that had been in existence for some time. See
No. 12CA2598, slip op. at 14-15 (citing, as supporting authority,
People v. Snook, 745 P.2d 647 (Colo. 1987); People v. Whitman, 205
P.3d 371 (Colo. App. 2007); and People v. Morrison, 985 P.2d 1
(Colo. App. 1999)).
If 24

Consequently, Wilkinson’s claim of “newly discovered

evidence” is without merit.
2.
1f 25

Ineffectiveness of Postconviction Counsel

The district court denied Wilkinson’s claims of ineffective

assistance of postconviction counsel as successive because they
could have been brought in 2012 when he filed his Crim. P. 35(a)
motion to correct illegal sentence.

12

1126

It is true that Wilkinson could have brought a Crim. P. 35(c)

proceeding at the same time that he brought his motion to correct
his illegal sentences in Wilkinson III. But we know of no authority
that would have required him to do so. What we do have is (1)
authority recognizing that Wilkinson’s ineffective assistance of
postconviction claims could not have been brought prior to the
conclusion of proceedings in Wilkinson II (i.e., the proceedings in
which postconviction counsel had represented Wilkinson), see
People v. Clouse, 74 P.3d 336, 339 (Colo. App. 2002); (2) authority
recognizing that Wilkinson had three years from the completion of
the correction of illegal sentence proceedings in Wilkinson III to
bring such claims, see Leyva v. People, 184 P.3d 48, 50 (Colo.
2008); and (3) Wilkinson, for the very first time, questioning the
effectiveness of his postconviction counsel in this, his (under Leyva)
timely filed Crim. P. 35(c) motion. “Because defendant raised
ineffectiveness of his postconviction counsel in his second [Rule
35(c)] motion, we agree that his motion was not successive.” People
v. Russell, 36 P.3d 92, 94 (Colo. App. 2001).
K 27

But, the People argue, two of Wilkinson’s claims must be

considered successive because, although they do not precisely
13

duplicate an issue raised previously, they are, in reality, “nothing
more than a second appeal addressing the same issues.” People v.
Rodriguez, 914 P.2d 230, 249 (Colo. 1996) (quoting People v.
Bastardo, 646 P.2d 382, 383 (Colo. 1982)). The claims to which the
People refer are those concerning postconviction counsel’s
ineffectiveness in failing to argue (1) that the prosecution’s expert
inappropriately vouched for the victim’s credibility or (2) that trial
counsel was ineffective in failing to object to the expert’s
impermissible vouching evidence.
1 28

This issue turns, in our view, on how closely related these

claims are to Wilkinson’s prior challenges to the admissibility of
(and trial counsel’s response to) the expert’s testimony. Cf. Russell,
36 P.3d at 98 (rejecting consideration of the defendant’s claim that
postconviction counsel was ineffective for failing to proffer evidence
to support his alibi because this argument was “essentially the
same” as a claim that counsel had failed to call alibi witness that
had been raised and fully litigated in his prior Crim. P. 35(c)).
U 29-

In his prior Crim. P. 35(c) motion, Wilkinson focused on the

manner in which counsel prepared for and handled the witness. In
his current postconviction motion, Wilkinson focuses on the
14

substance (or nature) of the expert’s testimony. In our view,
Wilkinson’s current claims are not “essentially the same” as or
closely related to his prior claims; indeed, the claims are sufficiently
different that they could have been made with respect to two
different witnesses.
1(30

Consequently, we conclude that Wilkinson’s claims are not

successive in nature.
B.

If 31

Other Grounds for Dismissing Wilkinson’s Ineffective
Postconviction Counsel Claim

The People nonetheless argue that Wilkinson is, as a matter of

law, not entitled to relief on any of his claims regarding ineffective
assistance of postconviction counsel. There are, again, two types of
claims: (1) postconviction counsel failed to challenge the
admissibility (and trial counsel’s failure to challenge the
admissibility) of an expert’s testimony at trial; and (2)
postconviction counsel failed to argue the effect of the Carmichael
decision on appeal in Wilkinson IL
1.

11 32

The Failure to Challenge the Admissibility of the Expert’s
Testimony

In support of his claim that postconviction counsel was

ineffective in not recognizing the impermissible nature of the

15

expert's testimony, Wilkinson again cites to the unpublished
decision from another division holding that the same expert had
improperly vouched for the credibility of a victim. See Jarrell, No.
12CA2598.
H 33

In Jarrell, the division determined that the expert's testimony

that only four out of every one hundred fifty children falsely
reported sexual abuse was error because “the jury was left with
expert opinions that children tell the truth about sexual abuse
ninety to one hundred percent of the time.” Jarrell, slip op. at 14;
see People v. Wittrein, 221 P.3d 1076, 1081-82 (Colo. 2009) (holding
trial court erred by allowing the expert to testify “that an eight-yearold child is unlikely to hyper-report sexual abuse allegations”);
Snook, 745 P.2d at 648-49 (holding that the expert's testimony that
“children tend not to fabricate stories of sexual abuse” was error
because it “necessarily referred] to [the victim's] character for
truthfulness” and constituted “an expert opinion that [the victim
was] almost certainly telling the truth”).
I 34

Unlike in the Jarrell case, the expert in this case did not point

to numerical ratios or percentages about the number of children
who tell the truth about sexual assault. Nor did the expert testify
16

that most or many children tell the truth about sexual assault. In
Wilkinson's Crim. P. 35(c) motion, he challenged the expert's
testimony about the way children's memories work.6 That was not
the challenge made in Jarrell Nor, in any event, would the
testimony Wilkinson challenged in the district court constitute
impermissible vouching on the part of the witness; rather, it was
permissible evidence of typical demeanor and behavioral traits of
children.7 See People v. Fasy, 829 P.2d 1314, 1317 (Colo. 1992)
(The doctor's “testimony clearly assisted the jury in understanding
the victim’s behavior after the incident.”); cf People v. Relaford,
2016 COA 99, U 28 (“‘[A]n expert may testify as to the typical
demeanor and behavioral traits displayed by a sexually abused
child’ . . . because it assists the jury in understanding the victim’s
behavior after the incident — why the victim acted the way he or
she did.” (quoting People v. Mintz, 165 P.3d 829, 831 (Colo. App.
2007))).

6 Even then, he challenged the testimony mainly on the ground that
it was not sufficiently reliable.
7 And more specifically, as they related to the victim's conduct
during his interview with the police.
17

1 35

Because the record does not support a claim of impermissible

vouching by the expert, postconviction counsel was not, as a matter
of law, ineffective for failing to challenge the testimony’s
admissibility or trial counsel’s failure to oppose its admissibility.
See Gray v. Bowersox, 281 F.3d 749, 756 n.3 (8th Cir. 2002)
(stating that where the underlying claim would have been without
merit, a claim of ineffective assistance of counsel in not making it is
not viable); People v. Torrez, 37 Cal. Rptr. 2d 712, 717 (Cal. Ct. App.
1995) (defense counsel is not required to make futile motions).
2.
136

The Failure to Argue Carmichael on Appeal

Wilkinson also asserts that postconviction counsel was

ineffective when she failed to argue on appeal in Wilkinson II the
effect of the Carmichael decision. Carmichael, remember, addressed
the issue of prejudice arising from counsel’s deficient performance
during plea bargaining.
1 37

In his Rule 35(c) motion, Wilkinson said:
At no time did [postconviction] counsel petition
the Appellate court for permission to file
supplemental briefing addressing the impact
that Carmichael had on [Wilkinson’s]
arguments.

18

[H]ad the court applied the principles
established in Carmichael to [his] claim,
[Wilkinson] would have prevailed and the
conviction would have been vacated and the
parties returned to the plea bargaining stage.
[Postconviction counsel’s] failure to petition the
Appellate Court to include this precedential
case amounted to below professional
standards. Thus, the first prong of the
Strickland test is met.
The above argument clearly establishes that
[Wilkinson] is entitled to relief on this
claim. . . . Thus, the second prong of the
Strickland test is met and [Wilkinson] is
entitled to relief.
If 38

“Appellate counsel is not required to raise on appeal every

nonfrivolous issue a defendant desires to raise.” People v. Trujillo,
169 P.3d 235, 238 (Colo. App. 2007). In support of a claim of
ineffective appellate counsel, a defendant must allege that appellate
counsel “ignored issues that are clearly stronger than those
presented.” People v. Long, 126 P.3d 284, 286 (Colo. App. 2005)
(citing Gray v. Greer, 800 F.2d 644, 646 (7th Cir. 1986)). No such
allegation was made by Wilkinson in his Crim. P. 35(c) motion. Nor,
in our view, could or should such an allegation be implied.
If 39

In his petition and on appeal, Wilkinson overlooks the fact

that the issue to which Carmichael related — ineffectiveness of trial

19

counsel during plea negotiations — had not been raised on appeal
in Wilkinson II. Indeed, the Carmichael decision was rendered nine
months after the appellate briefing in Wilkinson II had been closed
and about two months before the division announced its decision in
that case. Injecting an entirely new issue (i.e., ineffectiveness of
trial counsel during the plea process) into the appeal — based on a
new decision — at that late stage of the appellate proceeding would
have been highly irregular.
1 40

And to have had any chance of prevailing on this belatedly

brought “new’’ claim in Wilkinson 11, postconviction counsel would
have had to do more than demonstrate prejudice under Carmichael;
she would have also had to demonstrate deficient performance of
trial counsel during the plea process. Cf. People v. Gandiaga, 70
P.3d 523, 526 (Colo. App. 2002) (“If a court determines that
counsel’s performance was not constitutionally deficient, it need not
consider the prejudice prong of the ineffective assistance of counsel
test. Similarly, if a court determines that a defendant failed to
affirmatively demonstrate prejudice, it may resolve the claim on that
basis alone.”) (citation omitted).

20

1 41

The district court in Wilkinson II found that trial counsel’s

performance throughout the case was not deficient. Postconviction
counsel did not argue on appeal in Wilkinson II that trial counsel’s
performance during the plea process was deficient,8 and Wilkinson
did not, in his Crim. P. 35(c) motion, take postconviction counsel to
task for failing to do so. Because Wilkinson did not, in his Rule
35(c) motion, allege postconviction counsel’s performance in this
regard was deficient, there was no basis for believing that she had
overlooked a meritorious argument that was more likely to succeed
than the other ineffective assistance of counsel arguments she
pursued on appeal.
142

Consequently, albeit for different reasons, we conclude that

the district court properly denied this ineffective assistance of
postconviction counsel claim without a hearing. See Ardolino v.
8 In the Wilkinson //appellate briefs, postconviction counsel
referenced one obscure matter that could have potentially related to
a claim of ineffective assistance of counsel during the plea process.
That matter, however, was not one of the “plea process” deficiencies
of which Wilkinson complained in either his Wilkinson II Rule 35(c)
motion or his current Rule 35(c) motion. Further, an obscure
reference to a matter in one sentence in a brief does not an
argument make. See, e.g., United States v. Zannino, 895 F.2d 1, 17
(1st Cir. 1990) (<£[I]ssues adverted to in a perfunctory manner,
unaccompanied by some effort at developed argumentation, are
deemed waived.”).
21

People, 69 P.3d 73, 77 (Colo. 2003) (recognizing that a trial court
may summarily deny a Crim. P. 35(c) motion if the allegations, even
if true, do not provide a basis for relief).
III.
Ti 43

Disposition

The order is affirmed.
JUDGE DUNN and JUDGE TOW concur.

22

i

L
t

i

:

►

;

/s

DISTRICT COURT
125 North Spruce St.
Grand Junction, Mesa County, Colorado

JUTE FILED: August 18,2016 3:36 PM
CUSH NUMBER: 1999CRI 111

THE PEOPLE OF THE STATE OF COLORADO.
i
i

v.
i

!

MARK LEE WILXENSON,

I

I Defendant.
COURT USE ONLY
Case Number:
99CR1111

Division: 10

;rH

ORDER RE: MOTION FOR POSTCONVICTION RELIEF PURSUANT TO CRIM. P. 35(c)
1___
Before the Court is Defendant’s successive Crim. P. 35(c) petition filed on
July 8, 2016. In the present motion, Defendant contends that he received
ineffective assistance from both trial counsel and postconviction counsel. For
the reasons below, these claims are denied as successive.
Defendant first alleges that his trial counsel rendered ineffective assistance
during the plea bargaining process and during trial. In his first Rule 35(c)
motion, Defendant asserted that his trial counsel was ineffective by challenging
counsel’s performance during trial and by alleging that counsel did not
aggressively pursue an adequate plea agreement. The Court conducted an
evidentiary hearing on Defendant’s motion anti found that he was not
prejudiced by trial counsel’s performance because (1) there was abundant
evidence presented at trial to support the guilty verdicts; and (2) Defendant
i

would not have accepted a plea agreement even if he had been offered one
because he consistently maintained his innocence. Order re: Defendant's
Postconviction Motions, at 4-5 (Apr. 6, 2007). The Court’s order denying
postconviction relief was affirmed on direct appeal. Therefore, Defendant’s
current claim is denied as successive because the Court has already addressed
and rejected his ineffective assistance claim regarding trial counsel’s
performance. People v. Tolbert, 216 P.3d 1, 4 (Colo. App. 2007) (Rule 35(c)
expressly bars relief on claims that were “raised and resolved in a prior...
*

postconviction proceeding”).
Defendant has also raised an ineffective assistance claim regarding the
performance of his postconviction counsel relating to the litigation of his first
Rule 35(c) motion. After the denial of his first postconviction motion,
Defendant filed another postconviction motion challenging the legality of his
sentence. The Court granted this motion in part by amending the mittimus to
reflect that Defendant is subject to discretionary parole instead of mandatory
parole. Nevertheless, Defendant did not raise any issues regarding the
ineffective assistance of postconviction counsel even though the issue could
have been raised at that time. As such, this claim is also denied as successive
because it could have been raised in the preceding postconviction motion. See
People v. Wilson, — P.3d —, 2011 WL 2474295 at *10 (Colo.'App. 2011)
(declining to address issues under Rule 35(c) that could have been raised and
resolved on direct appeal). Rule 35(c) does not provide for perpetual review of a _

2

final judgment of conviction. People v. McDowell, 219 P.3d 332, 335 (Colo. App.
2009).
Contrary to Defendant’s assertion, fhe holding in Leyva v. People, 184 P.3d
48 (Colo. 2008), does not exempt the present motion from the rule against
successive postconviction petitions. In Leyva, the supreme court held that
when a court corrects an illegal sentence under Rule 35(a), the three-year
statute of limitations for attacking the original judgment is renewed. 184 P.3d
at 50. However, this statement of law in Leyva is inapposite because whether a
postconviction motion is time barred is a separate issue from whether it is
successive. In no way does the holding in Leyva require a court to consider
repetitive claims that were either litigated, or could have been litigated, in a
prior postconviction proceeding.1
Accordingly, the Court will summarily deny Defendant's motion without a
heating or appointment of counsel because the claims assented are deemed
successive.
Based on the foregoing, IT IS ORDERED that Defendant’s Rule 35(c) motion
is denied.

The Court also rejects Defendant’s assertion that his claims must be considered under the
holding in Martinez v. Ryan, ~ U.S.
132 S. Ct. 1309, 132p (2012), which simply held that
“a procedural default will not bar a federal habeas court from hearing a substantial claim of
ineffective assistance at trial if, in the initial-review collateral proceeding, there was no counsel
or counsel in that proceeding was ineffective.” The limit ed holding in Martinez does not require
a court to address successive claims for postconvicrion relief.
i

3

r

DATED this 18th day of August, 2016.
BY THE COURT:

r'
j

Brian J. Flynn

'

District Court Judge

*

4

f
5

!
t

!

!
r
!
»

AfFEMMX F

i

I

*

:

!

i.

(

i
;
;
!

:

UNITED STATES COURT OF APPEALS

FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

June 4, 2021
Christopher M. Wolpert
Clerk of Court

MARK LEE WILKINSON,
Petitioner - Appellant,
v.

No. 20-1452
(D.C.No. 1:20-CV-01328-LTB-GPG)
(D. Colo.)

SHIOBAN BURTLOW, et al.,
Respondents - Appellees.

ORDER

Before BACHARACH, MURPHY, and CARSON, Circuit Judges.

Appellant’s petition for rehearing is denied.
The petition for rehearing en banc was transmitted to all of the judges of the court
who are in regular active service. As no member of the panel and no judge in regular
active service on the court requested that the court be polled, that petition is also denied.
Entered for the Court

CHRISTOPHER M. WOLPERT, Clerk

i

